<html>
<title> - [H.A.S.C. No. 113-112] P5+1 NEGOTIATIONS OVER IRAN'S NUCLEAR PROGRAM AND ITS IMPLICA- TIONS FOR UNITED STATES DEFENSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 113-112]

                     P5+1 NEGOTIATIONS OVER IRAN'S

                    NUCLEAR PROGRAM AND ITS IMPLICA-

                    TIONS FOR UNITED STATES DEFENSE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 19, 2014


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 
 
 
 
 
 
 
                                  _______

                      U.S. GOVERNMENT PRINTING OFFICE
  89-505                   WASHINGTON : 2015
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  
















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDREE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, June 19, 2014, P5+1 Negotiations Over Iran's Nuclear 
  Program and Its Implications for United States Defense.........     1

Appendix:

Thursday, June 19, 2014..........................................    33
                              ----------                              

                        THURSDAY, JUNE 19, 2014
P5+1 NEGOTIATIONS OVER IRAN'S NUCLEAR PROGRAM AND ITS IMPLICATIONS FOR 
                         UNITED STATES DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Pickering, Ambassador Thomas R., Distinguished Fellow, Brookings 
  Institution....................................................     8
Singh, Michael, Managing Director, The Washington Institute for 
  Near East Policy...............................................     5
Tobey, William H., Senior Fellow, Belfer Center for Science and 
  International Affairs, Harvard Kennedy School..................     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    37
    Pickering, Ambassador Thomas R...............................    67
    Singh, Michael...............................................    56
    Smith, Hon. Adam.............................................    39
    Tobey, William H.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Walorski................................................    79
    
    
    
    
    
    
    
    
    
    
    
    
    
P5+1 NEGOTIATIONS OVER IRAN'S NUCLEAR PROGRAM AND ITS IMPLICATIONS FOR 
                         UNITED STATES DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, June 19, 2014.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen.
    The House Armed Services Committee meets to receive 
testimony from outside experts on the P5+1 <dagger> 
negotiations over Iran's nuclear program and its implications 
for United States defense. Today we have with us Mr. William 
Tobey, Mr. Michael Singh, and Ambassador Thomas Pickering. Our 
witnesses have an immense amount of experience working Iran 
issues, and we appreciate them sharing their perspectives with 
us today.
---------------------------------------------------------------------------
    <dagger> People's Republic of China, French Republic, Russian 
Federation, United States of America, United Kingdom of Great Britain 
and Northern Ireland, and the Federal Republic of Germany.
---------------------------------------------------------------------------
    I am concerned that the scope of negotiations with Iran 
over its nuclear program was flawed from the outset. We know 
that Iran would be allowed to keep its nuclear capabilities, 
ability to enrich, and breakout capability. We know that Iran 
has had and may continue to have undeclared sites.
    We know that there are military dimensions to Iran's 
nuclear program that it refuses to address. And we know that 
the nuclear program is but one facet of Iran's overall grand 
strategy, which includes its sponsorship of terrorism, the 
largest ballistic missile arsenal in the Middle East, and other 
conventional military capabilities that continue to threaten 
the region and beyond.
    Yet none of these issues appear to be within the scope of 
the comprehensive deal. Our ally Israel has called this a bad 
deal. Our friends and allies in the region have both publicly 
and privately conveyed their deep reservations about this deal. 
I worry that the President wants to achieve a nuclear deal with 
Iran at almost any cost.
    Some will argue that this deal is better than no deal and 
that it would slow down Iran's nuclear program. But how much 
time does it really buy us?
    International sanctions, which took a decade to put into 
place, were finally starting to bite. Had the Administration 
maintained a strong regional presence, Congress' robust 
sanctions, and a clear resolve to use the military option if 
necessary, we could have set the conditions for Iran to change 
its strategic calculus.
    Yet, through these negotiations, we have done the opposite. 
In fact, Iran already thinks that the P5+1 have legitimized its 
nuclear enrichment capability, thereby validating its nuclear 
calculus.
    The American public is understandably war-weary. I do not 
desire to go to war with Iran either, and that is precisely why 
I am concerned about the Administration's approach in these 
negotiations. If the Administration signs on to a comprehensive 
deal that legitimizes Iran's capability to enrich and that does 
not dismantle the nuclear program as well as the arsenal 
surrounding Iran's nuclear program, I fear that a future 
President may have to seriously contemplate taking military 
action to enforce such a deal or to protect our allies in the 
region. This is the worst possible outcome.
    This is a very serious and complicated issue. And, again, I 
thank our expert panel for being here today, and I look forward 
to their testimony and insights.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 37.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Well, let me just say, if, in fact, the United States 
agrees to the kind of deal that the chairman just described, 
then I think it would be a grave and terrible mistake. But what 
you just described, there is no resemblance whatsoever that I 
can see to what I have heard we are trying to accomplish.
    And let me be clear on one point. Without question, Iran is 
a bad actor, you know, independent of the nuclear issue. Since 
1979, they have been pretty much nothing but a bad actor on a 
lot of different issues. And we will have to confront that no 
matter what. Whether we get a nuclear deal or not, Iran is 
going to continue to be a challenge and continue to be a threat 
that we have to measure and contain.
    But the question, the calculus that we have made is, are we 
better off with that Iranian threat if we can take the nuclear 
piece of it off the table? And I think there is no question 
about it. Iran is terrible; Iran with a nuclear weapon would 
be, you know, a much, much more difficult situation to deal 
with. So any steps that we can take to stop them from getting a 
nuclear weapon, I think, are important.
    And the sanctions regime has, in fact, been working. It 
drove them to the table. It drove them to the table because of 
the impact that it has had on their economy, which has been 
devastating.
    And I am well aware of what Iran wants. What Iran wants is 
they would love to be able to get a nuclear weapon without 
international condemnation. That is what they would love to 
figure out. But, unfortunately for them and fortunately for us, 
that is not going to happen. If they pursue the nuclear path, 
there will be sanctions and there will be huge economic 
consequences, as there already have been.
    Point number one, we did not lift those sanctions in the 
interim agreement. It was a very, very small piece that was 
given to them. All of the sanctions put in place are still 
there. It is still having its impact on the economy. It gives 
Iran an incentive to come to the table.
    Now, if they come to the table and don't offer something 
that gives us confidence that they will not develop a nuclear 
weapon, then we shouldn't take the deal, absolutely. But 
pursuing these negotiations is the logical extension of 
sanctions. If we say to Iran, look, no matter what you do, no 
matter what you say, we are simply going to keep sanctioning 
you, then we give them incentive to just go ahead and build a 
nuclear weapon.
    And I think one of the biggest mistakes that I have heard 
in this debate, and I would be interested in hearing your 
comments on it: Everybody says that Iran is hell-bent to get a 
nuclear weapon, that they have made that decision, they are 
working towards it. And that simply isn't true. And the reason 
I know that is not true is because, back in 2005, I was told 
that Iran was 6 months from having a bomb. And I believe that 
is true. I think they have been 6 months from having a bomb for 
9 years. They have chosen not to build one. Why? Why? Because 
of the sanctions, because of what they are concerned about.
    So there is absolutely an opportunity to stop them from 
going down that road. Now, it is not easy, and I will evaluate 
this agreement based on whether or not it truly does stop them, 
but we have to at least try. I am going to be very interested 
from our witnesses today, what is the minimum in a negotiated 
agreement that we need.
    Now, I will tell you, you can't unring the bell. There is 
no agreement that is going to make us positive that, under no 
circumstances, never, ever, ever will Iran pursue a nuclear 
weapon again. But there are things that we can do that will 
significantly take down their enrichment, that will put in 
place a coercive inspections regime that will give us 
confidence that they are not building secret facilities. And if 
we can get that agreement that will tell us that we are going 
to know if Iran breaks it, then I think that is worth doing to 
stop Iran from getting a nuclear weapon.
    It is a difficult thing, and I will close by--one thing, I 
am not optimistic. I am not optimistic that Iran will be 
willing to give up what they need to give up in order to get 
this deal. And if that comes to pass, we will have to continue 
with the sanctions regime. We will have to continue trying to 
discourage them in that way. But I think it is folly not to at 
least pursue it to see if we can take the nuclear weapon off 
the table and deal with Iran on these other issues, you know, 
as we have dealt with them before.
    The choice here isn't, you know, we can force Iran to give 
up all of their bad behavior. I wish that option was on the 
table. The choice here is, can we take a realistic step that is 
going to stop them, continue to stop them, from getting a 
nuclear weapon? And that is what I want to hear our witnesses 
talk about. What are those specifics that we are going to need 
to have, in your estimation, to give us that confidence? And 
then what your level of optimism is about, you know, whether or 
not we can reach this agreement and whether or not Iran is 
truly serious about it.
    I yield back and look forward to the testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 39.]
    The Chairman. Thank you.
    Mr. Tobey.

STATEMENT OF WILLIAM H. TOBEY, SENIOR FELLOW, BELFER CENTER FOR 
   SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD KENNEDY SCHOOL

    Mr. Tobey. Chairman McKeon, Ranking Member Smith, it is a 
privilege to testify on a matter of surpassing importance. 
Preventing Iran from attaining a nuclear weapon is a matter of 
vital national security interest to the United States.
    Should we be satisfied with a deal that simply pushes Iran 
from 2 months to 6 months away from the nuclear threshold? Or 
should we expect more--that is, evidence of a fundamental 
decision not to pursue nuclear weapons?
    Last April, Secretary of State Kerry noted that Iran had 
reached a point perhaps only 2 months away from being able to 
produce sufficient fissile material to fabricate a nuclear 
weapon and raised the possibility of pushing that timetable 
back 6 to 12 months.
    Accepting a situation in which Iran insists on keeping a 
loaded weapon on the table but simply moves its finger farther 
from the trigger would not appear to offer sound prospects for 
long-term success. If Iran has not made a fundamental decision 
to foreswear nuclear weapons in return for better relations 
with other nations, Tehran will work to erode the firebreak by 
means overt and covert. And we have seen this situation in the 
past in North Korea.
    How can we judge whether or not Tehran has made such a 
fundamental decision, and how might we ensure that it endures? 
Satisfaction on three points would provide such insight and, 
just as important, offer the means to verify compliance or to 
detect cheating. These three potential elements of an agreement 
focus on preventing covert activities. They are: resolving 
concerns regarding possible military dimensions of Iran's 
nuclear weapon program; comprehensive monitoring of nuclear-
related procurement and manufacturing; and enhanced authorities 
for the International Atomic Energy Agency [IAEA].
    The first and most important step to ensure that Iran's 
nuclear weapons activities have truly ceased and will not 
restart is to get to the bottom of what the International 
Atomic Energy Agency calls ``possible military dimensions to 
Iran's nuclear program.'' Who did what, when, and where?
    The declaration can be verified by personnel files, 
invoices, manifests, inventories, disposition records, 
equipment, and buildings. The IAEA will construct a mosaic of 
the Iranian program. Some tiles will be missing, others might 
be fake, but the best way to understand the program and to 
ensure that it has stopped is to have as complete a picture as 
possible to identify and resolve inconsistencies.
    The November 2013 interim agreement calls for a joint 
commission to facilitate resolution of past and present issues 
of concern. The White House fact sheet on the deal contends 
that this includes possible military dimensions of the Iranian 
nuclear program, but such an outcome is by no means assured.
    The second step to guard against resurgence of a covert 
Iranian nuclear weapons program would be to authorize the IAEA 
to monitor comprehensively all nuclear-related and dual-use 
procurements by Iran to ensure that they are used solely at 
declared facilities. Credible information on undeclared nuclear 
procurements could be considered prima facie evidence that Iran 
is violating the agreement. As a part of this process, the IAEA 
will also need to monitor related production within Iran.
    A third step to guard against resurgence of a covert 
Iranian nuclear weapons program would be to enhance the powers 
of the IAEA beyond the Additional Protocol. Evidence of 
Nonproliferation Treaty cheating is often subtle, taking the 
form of inconsistencies and irregularities. The IAEA must have 
ongoing authorities to pursue these anomalies should they 
arise, including access to documents, people, and facilities.
    These terms--getting to the bottom of possible military 
dimensions, comprehensive procurement monitoring, and enhanced 
authorities for the IAEA--cannot guarantee Iran's compliance 
with a deal to block its pursuit of nuclear weapons. They can, 
however, test Tehran's willingness to abide by a deal and, even 
as the negotiations proceed and if a deal is concluded, act as 
a deterrent to those who might seek to cheat on it.
    Would insisting on these terms be worth risking the 
possibility of no deal? Mr. Chairman, given the stakes invoked 
in the Iranian nuclear issue, we cannot afford a situation in 
which Tehran pretends to comply and we pretend to believe it.
    Thank you.
    [The prepared statement of Mr. Tobey can be found in the 
Appendix on page 41.]
    The Chairman. Thank you.
    Mr. Singh.

 STATEMENT OF MICHAEL SINGH, MANAGING DIRECTOR, THE WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Singh. Mr. Chairman, Ranking Member, members of the 
committee, it is an honor to be here today. Thank you for 
inviting me.
    The Iran nuclear negotiations are often reduced to a set of 
technical issues, such as breakout time, inspection regimes, 
and so forth. Those are vitally important issues, and my 
colleague here on the panel covered them, I think, very well, 
some of them.
    But I think it would be a mistake to view any agreement as 
primarily or merely technical, because any agreement is going 
to have profound strategic implications for the United States 
for good or for ill. And what makes a deal a good deal or a bad 
deal I think needs to be measured not just in terms of breakout 
time but in terms of how it advances or sets back American 
interests in the Middle East and beyond. And I am going to talk 
a little bit about what I think needs to be in a deal beyond 
the technical issues to accomplish that.
    We all know that the nuclear weapons program has three 
elements. There is fuel fabrication, weaponization, and a 
delivery vehicle. And let me just go through each one of these 
things briefly.
    Fuel fabrication. Again, I am not going to cover in detail 
the centrifuges and so forth; my colleague has done that well. 
We need to recognize, though, that the technical compromises we 
make, however merited they may be or not, will also have 
strategic implications. They will send messages to folks in the 
region, especially if we are moving back from a position that 
we once held. And we need to make sure that we communicate what 
we are doing very clearly and that we take into account those 
strategic implications when we make compromises.
    We also need to take into account that whatever we permit 
Iran to keep in terms of nuclear capabilities, others in the 
region and beyond will have an incentive to match. And so we 
have to also think about what we allow Iran in terms of the 
implication for the global nonproliferation regime and our 
global interests, therefore.
    When it comes to weaponization research, here I would just 
identify myself with Mr. Tobey's comments on making sure that 
Iran comes clean on what it has done in the past. This will not 
only facilitate the work of the inspectors by giving them a 
roadmap to Iran's full nuclear ecosystem, it will give them a 
baseline for comparing future Iranian declarations and any 
intelligence information which we gather about Iran's 
activities, and it also helps us to determine exactly how much 
progress Iran did, in fact, make on weaponization and whether, 
in fact, they have stopped--issues where I don't think that we 
can say we are 100 percent certain at this moment.
    I would also say that, just as a practical matter, we can't 
really expect much from this agreement going forward if it 
doesn't begin with transparency. If it begins with obfuscation 
or dishonesty, I think it starts on the wrong foot.
    The third element is missiles, Iran's delivery vehicles. 
This is controversial, in a sense, because the Iranians have 
said it can't be included and P5+1 officials have been 
ambiguous on the matter.
    But if you look at Iran's missile capability--Mr. Chairman, 
you said Iran has the largest missile arsenal in the Middle 
East. That is right, as far as I know. They are also the first 
country to develop 2,000-kilometer-range missiles without first 
having a nuclear weapon. We also see that Iran's missiles, 
because they have poor accuracy, are not suited for 
conventional payloads; they are part of a nuclear weapons 
program. Iran is working, as you know, on a space launch 
program and could have, according to the Defense Department, 
ICBMs [intercontinental ballistic missiles] by 2015 at the 
earliest.
    So, in a sense, this is the leg of Iran's nuclear program 
which needs the most work. And I think that we need to be sure 
that Iran doesn't use the time and space provided by an 
agreement to perfect this last leg of their nuclear program so 
that in a couple years they come out having all three legs 
where they want them and ready for breakout.
    One more thing on this. Addressing missiles and 
weaponization will also ensure that, because there are these 
competing power centers in Iran--civilian, military, and so 
forth--that those military power centers, and not just the 
civilian ones, are bound by any agreement we reach and that 
inspectors will have insight into what the military is doing on 
the nuclear front, as well, not just the civilian authorities.
    One additional consideration for the agreement I think has 
to be the enforcement mechanism. It is one thing to have great 
inspections and robust inspections and to have strict limits, 
but what do we do if Iran cheats? We need to decide that up 
front. And I think that, as a condition of U.S. agreement, we 
need to ensure that the U.N. [United Nations] Security Council 
gets behind very vigorous enforcement mechanisms.
    I think we also need to plan what happens if Iran bends 
those lines that we have set instead of breaking them. If they 
delay inspections or harass inspectors, we need to know what we 
will do in response and what our allies are prepared to do in 
response as a condition of our agreement.
    Finally, this issue of regional issues and whether they 
should be part of an agreement. For me, I think this is a very 
difficult issue, because on the one hand we are concerned about 
far more than just Iran's nuclear program. And many of our 
allies in the region, especially our Arab allies, are more 
concerned about Iran's regional activities in places like Syria 
and elsewhere than they are about even Iran's nuclear program, 
and they don't like the prospect of our relieving pressure 
before those issues are addressed. At the same time, though, I 
think that they worry about the optic of our dealing 
bilaterally with Iran on these regional issues over their heads 
and right now don't necessarily trust us to come to the right 
conclusions on those regional issues.
    So I think, in balance, what we need to see is we need to 
leave those regional issues out of the nuclear negotiations but 
deal with them very firmly separately, ensure that we leave 
pressure in place and sanctions in place to put pressure on 
Iran on those issues and, frankly, also improve and make firmer 
our commitment to the Middle East security in places like 
Syria, Iraq, and elsewhere as part of the context, the broader 
context, for this agreement.
    I also worry when it comes to regional issues that, as we 
saw from Iranians yesterday, from President Rouhani's chief of 
staff, that they view the regional issues as leverage to get us 
to dilute our positions on the nuclear front.
    Mr. Chairman, let me just end by saying that, whether we 
like it or not, many people, including in the region, see this 
as the most important issue in the region, with everything else 
that is going on. And we are going to be judged, in terms of 
our commitment to the Middle East, in terms of our commitment 
to our own interests, by how this agreement comes out and how 
firm and strong an agreement it is.
    Thank you.
    [The prepared statement of Mr. Singh can be found in the 
Appendix on page 56.]
    The Chairman. Thank you.
    Ambassador Pickering.

  STATEMENT OF AMBASSADOR THOMAS R. PICKERING, DISTINGUISHED 
                 FELLOW, BROOKINGS INSTITUTION

    Ambassador Pickering. Thank you, Mr. Chairman and Ranking 
Member Smith. It is a pleasure and honor to join you and all 
the members of the committee, and I thank you very much for the 
invitation.
    Since 2013, we have seen a shift in the U.S.-Iran 
relationship. Official bilateral talks held confidentially, the 
important election for the President of Iran, won by Hassan 
Rouhani, and the successful completion of the first step of 
negotiations with the November 24th, 2013, Joint Plan of Action 
have opened the door to progress. Today this committee wishes 
to discuss how this progress and a possible comprehensive 
agreement can impact U.S. strategy in the region and beyond.
    The U.S. strategic objective in the Middle East should be a 
stable and secure region, open to commerce, to ideas, and to 
interchange. States in the region should have the opportunity 
to cooperate, enjoy peaceful relations and trade among 
themselves. It should be a region without nuclear, chemical, or 
biological weapons and, I would certainly add, without a strong 
offensive missile capability, particularly at longer ranges.
    I want to be clear that I strongly oppose Iran acquiring 
nuclear weapons and am deeply concerned about its support for 
terrorism and Hezbollah, its violations of human rights of its 
citizens, and its threats against Israel.
    I recently led a delegation for the Iran Project to Israel 
and exchanged points of view with the highest levels of the 
Israeli government, military, and intelligence leadership, as 
well as respected foreign policy experts. We were well-
received, and we had engaged discussions of key issues 
pertaining to Iran and its nuclear program, which lead to a 
greater understanding of Israeli assessments and outlook on 
this issue. We plan to continue these informal exchanges.
    The U.S. strategy should be to develop policies in support 
of its long-term goal of a more stable and secure Middle East 
through peaceful processes, with the use of force reserved only 
to address the most extreme and unmanageable threats to U.S. 
security. At the same time, we must recognize that this part of 
the world is likely to pass through many years, perhaps 
decades, of turmoil, violence, and problems that only the 
leaders and the people of the region can resolve finally for 
themselves. What role the U.S. can play and what goals we have 
laid out are important.
    An important variable in looking at the strategic outcome 
is whether the comprehensive nuclear agreement with Iran can be 
reached and on what time scale. Here, as we assess the 
strategic implications of that, there are two cases, obviously: 
an agreement or no agreement.
    Before we assess these two scenarios, however, there are 
important implications for the U.S. policy in terms of what has 
already been agreed. And it is instructive to acknowledge that 
Iran has, in fact, complied with its commitments taken last 
November in the Joint Program of Action. The IAEA, the 
International Atomic Energy Agency, which has long been 
skeptical of Iran's seriousness, has provided monthly reports 
verifying the scale and timeliness of its actions.
    And, under the Joint Plan of Action, Iran agreed to take 
several major steps to limit its nuclear capacity. In my 
testimony, I list these, but the most important is to get out 
of the 20-percent enrichment business and to convert that 
stockpile to something that cannot be rapidly enriched to 
higher levels.
    But there also have been a number of other important steps, 
including capping the number of centrifuges, limiting 
centrifuge production, capping enrichment at 3 to 5 percent, 
keeping the enrichment stockpile at the size and level it was 
when the agreement went into effect on the 20th of January, and 
preventing the startup of new centrifuge types and their use in 
the Iranian program, all of which the IAEA says Iran has been 
complying with.
    And, for the first time, the expanded safeguards have 
covered verification, something along the lines that Mr. Tobey 
and Mr. Singh have talked about. And I believe these represent 
a serious and important start.
    The consequences for U.S. strategic and defense issues and 
interests in the Middle East without an agreement are 
important. We are left there with two really unpalatable 
options: containing a nuclear-armed Iran or going to war. It is 
possible that Iran will decide not to pursue a nuclear weapon--
and Mr. Smith referred to their attitudes on this up until 
now--even if an agreement is not reached. But understanding the 
consequences of alternative strategies to diplomacy is also 
important.
    And let me be clear about that. There are limits on the use 
of force in preventing a nuclear-armed Iran. The use of 
military force by Israel or the United States, at best, 
according to the best experts' estimations, could set the Iran 
program back only 2 to 4 years. It would not eliminate it. 
Iran's nuclear capability is unfortunately in the minds of its 
scientists at the moment, which can't be taken out by the use 
of force alone. In fact, military intervention, short of a 
decision by Iran to go for a nuclear weapon, might actually 
stimulate that kind of a decision, and that is important to 
consider.
    The failure to reach a diplomatic solution would have 
profound political implications inside Iran, as well. It will 
certainly weaken the moderates and embolden the hardliners, 
which would most certainly impact questions of human rights, 
political openness and freedoms, and all of the other related 
issues that concern us worldwide.
    Moreover, if an agreement is not reached, the U.S. and its 
allies in Western Europe will have no alternative but to fall 
back on adding more sanctions, which presents, in itself, new 
problems. We have learned from the past year that sanctions 
have worked to get the Iranians to the table to negotiate 
seriously about issues of great importance to our national 
security. Yet the imposition now of more sanctions to achieve a 
better deal will not, in my opinion, having looked at the 
Iranians for a long period of time, lead to Iranian 
capitulation on this issue.
    Sanctions are not in themselves alone the objective but are 
clearly the means to reach a specific goal--in this case, 
preventing Iran from acquiring a nuclear weapon. Sanctions work 
best, if at all, only when the diplomacy around them can work. 
And additional sanctions during the diplomatic process could 
very well upend the entire course of the discussions, losing 
the transparency that we have gained in the Joint Program of 
Action and rolling back the important progress we have already 
made.
    If the U.S. were to walk away from a deal that most of the 
other P5+1 partners believe fulfills our main objective, those 
countries are no longer likely to see value in abiding by the 
strict sanctions regime that has been set in place under 
American leadership. This would leave us alone to enforce 
largely unilateral sanctions, which we know are unfortunately 
less effective.
    The consequences of reaching a comprehensive agreement are 
the opposite. The impact of an agreement that meets U.S. 
security needs would enhance our security as well as that of 
the other nations in the region. It would include a significant 
reduction in the Iranian program, the institution of the kind 
of intensive monitoring system that has been recommended by the 
other witnesses and with which I agree, the prevention of Iran 
from achieving a nuclear weapons capability.
    And my testimony assumes that neither the U.S. nor Iran 
would accept an agreement which was not in their long-term 
interest. Such an agreement, if it holds, could mark the 
beginning of a longer process of further efforts, including 
resolution of many of the problems between the two countries.
    Early efforts could take many different forms, including 
confidence-building measures; attempts, as Mr. Singh has 
outlined, to discuss and agree on regional questions as well as 
longstanding questions between the U.S. and Iran stemming back 
to the fall of the Shah.
    The process would be long, tenuous, and demanding. No early 
establishment of full diplomatic relations or normalization of 
those would be likely. Thirty-five years of mistrust and 
misunderstanding won't disappear overnight despite the 
emergence of areas of mutual interest, such as the possibility 
for cooperation on Afghanistan and now, quite possibly, on 
Iraq.
    Even if the U.S. were to expand its relations with Iran 
over coming years, we are unlikely to ever want to accept Iran 
as a hegemonic force in the region nor withdraw U.S. military 
presence from the region. We have simply too much at stake with 
our friends and allies in the GCC [Gulf Cooperation Council] 
states, in Iraq, and with Israel to shift our strategic focus 
on the Gulf. Despite recent signs of instability and 
uncertainty in Syria and Iraq, the U.S. is unlikely to engage 
in seismic shifts in its policies.
    Regional strategic implications are harder to read and 
predict. The sharpening of sectarian conflict between Sunni and 
Shia, which we are reading about in the papers this morning, 
has impeded a rapprochement between Arabs and Persians across 
the Gulf. Yet both sides, at least on the surface, still 
profess to be committed against war and open for high-level 
visits and even seeming agreement, if not full cooperation.
    Saudi Arabia and its Arab neighbors will need to be 
satisfied and assured that the U.S. stands with them even as 
they seek some regional accord with the parties in the region, 
including Iran. More importantly, the U.S. support of Israel's 
security must and will remain the cornerstone of American 
interest in the region, and U.S. relations with Iran will not 
change this commitment.
    Rather than being taxed with building new relations with 
nations at odds with each other, whether it is Israel or across 
the Gulf, the U.S. needs to act carefully to achieve better 
balances on both sides without upsetting its own relationships. 
And this is a major challenge for our diplomacy.
    Without a comprehensive agreement, we can expect even more 
strategic challenges. Could the absence of an agreement 
encourage Iran to push for nuclear weapons? The answer to this 
is not clear, but, certainly, all contingencies have to be 
considered.
    The U.S. seeks a reduction in breakout time for Iran in any 
dash to a nuclear weapon, which is outlined in the 
comprehensive agreement. Without an agreement, the U.S. and 
others could still use sanctions, negotiations, and other 
measures short of force to prevent a potential breakout. Should 
that fail, in the event Iran were to decide to break out, the 
implication is clear that the U.S. would keep open its option 
to use force.
    My testimony then summarizes those points. It talks about 
the comprehensive negotiations and where they are. Just a brief 
set of statements on where I believe those negotiations are 
today and how we envisage things for the future.
    Both parties seem committed to finish the current process 
by July 20th, 2014. The early stages went quite smoothly. 
Serious differences, however, remain. And they are reported to 
cover enrichment, the numbers and other characteristics of 
centrifuges and the amount of low-enriched uranium which would 
be allowed to be produced under the deal; the Arak reactor and 
plutonium output; possible military dimensions concerns, now 
being handled by the IAEA, which, also, my colleagues here at 
the table focused upon; the extent of inspection, which I 
believe is extremely important; sanctions relief; and the 
duration of an agreement. There are possible paths through each 
of these issues, and an agreement will have to require very 
tough compromises.
    Iran is focused on creating a peaceful civil program, it 
says, protecting what it has already achieved, in part to 
address domestic political opposition in Iran, which remains 
strong. The U.S. seeks a minimal Iran civilian program capable 
of meeting its current needs without significant increases in 
breakout time. The scope of subjects to be resolved is 
reportedly agreed, and some progress has already been made on a 
number of these issues.
    My humble opinion is that it will be a real stretch and a 
hard push to get all of this in place by the 20th of July, much 
as it represents important advantages for the parties on both 
sides.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Pickering can be 
found in the Appendix on page 67.]
    The Chairman. Thank you.
    Mr. Tobey, Mr. Singh, in your testimony, you describe what 
should be included in any comprehensive deal with Iran.
    As I said in my statement, I am pessimistic that the 
Administration will push the P5+1 to sufficiently address in a 
comprehensive deal Iran's state sponsorship of terrorism, its 
ballistic missile program, any covert activities, and the 
conventional military programs that support the military 
dimensions of Iran's nuclear program.
    If the Administration does not address these facets that 
support Iran's nuclear program and its ability to project 
power, what would be the implications for security in the 
region and beyond?
    Mr. Singh. Well, Mr. Chairman, if I could just start on 
that, I think that if we do not address especially the other 
elements of Iran's nuclear weapons program, its nuclear weapons 
capabilities, besides fuel fabrication--and let me be clear, I 
think it is very important that we extend Iran's breakout time 
as much as possible. I don't think it was wise to abandon our 
position arguing for no enrichment in Iran and no plutonium 
activities in Iran, but we are well beyond that point now, 
obviously.
    If we don't, however, address those other two legs of the 
nuclear stool, as it were, then we really haven't fully 
addressed even the nuclear weapons program. And I think that we 
will leave Iran in a position where it can continue to work 
towards a nuclear weapons capability and perfect a nuclear 
weapons capability, even if it has paused certain elements of 
its fuel fabrication program.
    We also, I think, put at greater risk the chance that Iran 
could covertly develop a nuclear weapon, because it would be 
openly and permissibly working on those other elements of a 
program, which means it would only covertly have to address the 
fuel fabrication side of things.
    I think, also, for our image in the region, our prestige in 
the region, an agreement which is very minimalist will result 
in some, as I mentioned in my testimony, negative 
reverberations within the region, because people will see it, 
in a sense, as a triumph for Iran and as a sign, again, that 
the United States has a weakening commitment to the region.
    Ambassador Pickering. Mr. Chairman, may I make a remark or 
two on your question, which I think is extremely important.
    Since the beginning of the negotiation effort, beginning 
with the Bush administration and now the Obama administration, 
there has been a very strong reluctance to add to the nuclear 
negotiations other issues, however important they are. And that 
reluctance was based in, I think, a well-founded concern, which 
Mr. Singh mentioned in his discussion related to his testimony, 
and that was that the more things we add to the present deal, 
the more likely it is we are going to have to pay in the coin, 
if I could put it this way, of nuclear concessions to get the 
kind of additional objectives we want.
    And that it is very clear, as Mr. Singh said, that a 
missile without a nuclear capability is much less dangerous 
than one with. And, therefore, focusing our time and attention 
and putting every effort behind putting the nuclear business in 
a situation where we believe we have now high confidence that 
they will not develop a nuclear weapon, which is the objective 
of the comprehensive agreement, in my view, is probably worth 
the priority we have assigned to it, rather than to attempt to 
create a kind of grand bargain, including both the missiles and 
the nuclear weapons issue at the same time.
    I have thought a great deal about this because, seemingly, 
on the surface, dealing with missiles is persuasive. But 
missiles without a warhead puts us in a lot stronger position 
to deal with missiles as a second issue, and I would certainly 
recommend very strongly that missiles not be left behind.
    But I think it is important to consider the thinking of 
both Administrations in this.
    Mr. Tobey. Mr. Chairman, my fellow panelists have dealt 
with other aspects of your question. I would like to focus on 
the covert problem, as I did, really, in my testimony.
    I think a failure to deal with the covert issue and 
focusing on--you know, there are really three ways in which 
Iran could attain a nuclear weapon. They could break out of the 
treaty using declared facilities, they could sneak out of the 
treaty using undeclared facilities, or they could buy a weapon 
or materials from some other state. Those are the theoretical 
possibilities.
    A lot of the focus of the negotiations has been on the 
overt facilities, putting in place a firebreak that would make 
it a longer period during which they would need to break out of 
the treaty. I am concerned that the most likely path that Iran 
would take would be use of covert facilities. And that is why I 
recommended the three elements of a deal that I did.
    The Chairman. I might be very naive, but it seems to me, if 
they were just wanting to have nuclear capability to provide 
energy for their nation, they wouldn't have to have their 
facility under a mountain. It could be open. They could have 
inspectors. I mean, it could be totally transparent.
    And it just seems to me that it is so obvious what their 
real goal is that anything else that we think about is just 
kind of superfluous to the situation. I just think we just play 
right into their hands. The longer we talk, the more they are 
able to do. And it just seems that we just play right into 
their hands on this whole subject.
    Is Mr. Smith gone?
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I appreciate the fact that we are holding this hearing 
today. As you know, the 18 years I have been here in the 
Congress, I think I have been on the subcommittee that deals 
with this for 16 of those 18 years. So I am incredibly 
interested in this topic.
    And I think that there is real doubt by many of us here 
that there is going to be a deal by July 20th on the P5+1. And 
I think when we hear the chairman and, you know, his 
understanding of the situation, our understanding, the 
negotiations that are going on with respect to the number of 
centrifuges and giving that up, the Arak heavy water reactor, 
all of these issues, I think, give us an inability to trust 
that even if we made a deal that the deal would be followed 
through.
    When I look back, I look at the fact that Iran has defied 
six U.N. Security Council resolutions that have called for it 
to suspend uranium enrichment and reprocessing activities and 
that it has consistently pursued, I believe, a very covert 
action of enrichment in its capabilities. And it is, of course, 
very evident that it has ignored or not allowed IAEA inspectors 
full access to nuclear-related sites.
    So my questions--I have several. The first would be, how 
can the P5+1 more effectively pursue better monitoring and 
verification processes during these ongoing negotiations? That 
would be my first question.
    And how can we ensure that the IAEA inspectors can have 
better access to Iran's facilities? Because a lot of this 
negotiation deals with ability to verify and actually go in and 
seek out these issues.
    So that would be my first set of questions to whomever.
    Yes, Doctor?
    Ambassador Pickering. Perhaps I could begin.
    I think that your point is very important, and, indeed, 
full inspection and monitoring is a critical question in 
dealing with a lot of potential issues.
    The Joint Plan of Action itself has unprecedented new 
monitoring arrangements in the current 6-month period for the 
International Atomic Energy Agency, including for the first 
time ever inspection of centrifuge parts, production, and 
centrifuge assembly plants, including daily access to Iran's 
nuclear facilities, something that has been, I think, speeded 
up and is unusual, and including, instead of providing the 
world with quarterly reports of what is happening in Iran, the 
IAEA is now providing monthly reports on Iranian compliance 
with all of the aspects of the Joint Plan of Action.
    The IAEA is clearly, in my view, at an absolute minimum, 
going to have to apply something called the Additional 
Protocol, something the Iranians agreed to for a period of 2 
years. They signed but did not ratify. And at the end of the 2-
year period, because of their objections to continued Western 
insistence that they go to zero centrifuges and zero 
enrichment, they resumed a regular inspection cycle rather than 
the Additional Protocol.
    The Additional Protocol provides a great deal more access, 
including at the choice of the IAEA, rather than on the basis 
of prior agreement. I, myself, have believed for a long period 
of time we also ought to draw lessons from the Iraq inspections 
that were under a separate negotiated arrangement with Iraq 
stemming out of Iraq's invasion of Kuwait in 1990 and indeed 
the period after that and a series of U.N. resolutions. That, 
at a minimum, in my view, should give the IAEA anytime, 
anywhere access, which was the standard in Iraq.
    And it turned out, in fact, that that standard was a lot 
better, despite the fact that the Iraqis had on occasion tried 
to resist those inspections. Nevertheless, it was the 
mobilization, put it this way, of international strength and 
support, our military presence in the area, the no-fly zone, 
and, indeed, other capabilities which, in the end, I think 
helped a great deal to get the kind of level of assurance that 
we had. Those kinds of approaches are important.
    Finally, since Iraq and, indeed, since the Additional 
Protocol, new technical techniques for examining and following 
the kinds of activities that should constitute part of the 
inspection mechanism should themselves be incorporated in any 
new ramified inspection arrangement with regard to Iran.
    That obviously has to be based on access, but with the 
access of the Additional Protocol and what I would suggest 
beyond that, I think we have gotten close to the kind of 
inspection that can give us not absolute certainty but at least 
a high confidence that our system can not only monitor what is 
already going on but have a reasonable chance of finding covert 
activities.
    The reasonable news is that, up until now, when Iran 
started hidden activities, we had a very good indication 
through our national intelligence mechanism several years ahead 
of the actual declaration of those facilities, about which the 
Iranians disputed with the U.N., but, nevertheless, we knew.
    I think, finally, we have a huge envelope of ambiguity 
against the Iranians in attempting covert activity, 
particularly if we make our capacity to respond to that, up to 
and including the use of force if necessary, as clear and on 
the table as a part of the agreement; the ambiguity being that 
the uncertainty on their side and the consequences of failing 
to comply with the agreement become a great deal more punishing 
than the uncertainty on our side.
    And that is helpful in deterring the Iranians from moving 
in that direction, but I would be the first to say we will 
never achieve 100 percent. We can achieve very high confidence, 
as you know. On a regular basis, General Clapper is able to 
tell us in his annual report that the Iranians have not made a 
decision to make a nuclear weapon, and he continues to say this 
with what he calls high confidence, which, as I read the 
intelligence in this particular issue and the judgments about 
intelligence, is a pretty solid basis for making that kind of 
conclusion.
    Ms. Sanchez. Mr. Chairman, I would just like to put on the 
record that if we are to continue down this particular path of 
this negotiation, this ``anytime, anywhere'' issue for me is 
really a make-or-break. Because, you know, the problem is not 
what they are going to let us take a look at; the problem is 
what they don't show us in what they have. And that is where 
all of these issues have occurred.
    And thank you for your indulgence on the time, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And I join with you that I am very concerned about 
superfluous, to me, almost wishful thinking, as world peace is 
at risk with the potential of Iran developing a nuclear 
capability. And I appreciate, too, that the concerns we have 
really are bipartisan. There is just such a concern.
    We need to, I think, refresh our memories. And that is 
that, in considering these negotiations with Iran, a state 
sponsor of terrorism, I believe that the President is putting 
American families at risk by ignoring the clear threats of 
Iran's rulers. In fact, I believe that weakness will lead to 
conflict and more attacks worldwide.
    In 1983, we should not forget, but somehow people have, 
that the bombing of the Marine barracks in Beirut was by Iran. 
It was the largest explosive device since Hiroshima; 305 
personnel were killed. We should remember that, of course, it 
was Iran that produced the IEDs [improvised explosive devices] 
to kill American troops in Iraq and Afghanistan, killing 
civilians too. And it is horrific that these IEDs were used, 
vehicle-borne, to purposely kill Iraqi children. This was not 
an accident.
    The President has failed to encourage the Green Revolution, 
where the young people of Iran wanted change, regime change. 
And the people seeking regime change actually were shot and 
killed in the streets and were not given the encouragement they 
should. And we know Iran is the culture of ancient Persia, and 
there is a great history that should be reestablished but not 
through an authoritarian regime.
    And, just this spring, we know that Iran was transshipping 
missiles to terrorists. But, fortunately, Israel has stopped 
this transfer.
    The message that we should understand--at rallies in 
Tehran, the signs that are carried are in English for our 
benefit, and they are very clear. They say, ``Death to America. 
Death to Israel.'' That is what they mean.
    In light of that, Mr. Singh, as Iran refuses to reveal the 
extent of its nuclear program now while talks are ongoing, what 
would make anyone believe that they would reveal the extent of 
these programs accurately once a comprehensive agreement is 
reached?
    In your view, should the P5+1 sign a comprehensive deal 
with Iran if Iran has not fully satisfied all the IAEA concerns 
regarding possible military dimensions?
    Mr. Singh. Thank you, Congressman.
    I think it is an excellent question. I think the answer is 
``no,'' that this has to be a key element of what we do.
    Right now, this is being pursued by the IAEA, this question 
of possible military dimensions. And let's face it, that word, 
``possible,'' is a bit generous. These are military dimensions 
to a program. That is what the weaponization research is for.
    And these clearly need to be resolved, and we need to see 
Iran come clean. Because it is important, I think, that this 
start from, as Mr. Tobey said, a clear strategic decision by 
Iran to leave the military elements of its program behind. And 
unless they are willing to do that, then I don't think we 
should sign an agreement.
    I think it is also very important for the inspectors. And 
the Congresswoman's question about how do we strengthen 
inspections, I think that having these issues resolved, having 
Iran come clean on its past activities is absolutely key to 
that so the inspectors have a roadmap, have a baseline.
    But there are other elements to that, Congressman. I think 
we need to make sure that we keep our own intelligence 
resources in place, that we don't start drawing them down 
because we think this issue is finished after an agreement is 
signed. We have to keep our eye on Iran.
    I think it is important that we keep military forces in the 
region, that we don't draw those down, thinking that the 
problem is solved after an agreement is signed, because, again, 
we need a credible enforcement mechanism and a credible 
military threat if necessary, which hopefully we will never 
have to use. So I do think that that is an incredibly important 
part of the program.
    Look, I think that what we really want to see is a 
strategic decision by Iran to forego any hope of having nuclear 
weapons in the future. We would like to see a broader shift by 
Iran such that we could have a better relationship with them. 
But I don't see yet evidence of that shift, nor am I 
necessarily confident that if we sign a nuclear agreement you 
will start to see that kind of broader easing of tensions. We 
could hope for that, but I think we need to be clear-eyed, we 
need to be realistic.
    And we are going to need to continue to push back, I would 
say, far harder than we are now on Iranian shipment of arms, 
Iranian support for terrorism, and other activities like that, 
in part to show our allies that we are not stepping back from 
the region in the wake of an agreement.
    Mr. Wilson. And I appreciate that very much. And I share 
your concern. And, hey, the thought that we would be 
considering military dimensions--as we know, they are 
developing a ballistic missile capability that could attack 
southeastern Europe all the way back over to India. So our 
allies are at risk.
    Thank you.
    The Chairman. Thank you.
    Ms. Davis.
    Ambassador Pickering. Mr. Wilson, could I just make a 
comment on what Mr. Singh----
    The Chairman. The gentleman's time has expired, so we need 
to move on.
    Ambassador Pickering. Okay.
    The Chairman. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you.
    It seems to me that we are looking at a number of 
continuums here, I mean, from what I guess we might see as 
ideal to absolutely horrible, in addition to the time factors 
that we are looking at. And I wonder if you could talk a little 
bit about that and where time itself fits into this and who it 
is serving.
    The sanctions seem to have had an impact in terms of 
bringing Iran to the table, but how much longer and how more 
aggressive if we were to move in that direction in a different 
way? Where do you see that? I mean, is there a breaking point 
here, in some ways, in terms of Iran and the impact of those 
sanctions and, certainly, the public reaction as well? Some 
people have talked about face-saving measures, things that are 
needed. Could you help out with that?
    Ambassador Pickering. Perhaps I could take a shot at that.
    I think that up until November it was, I think, quite clear 
to all of us, as Iran made larger amounts of 20-percent 
material and increased the number of centrifuges it had in 
operation on a regular basis, that time was not on our side.
    At least momentarily, through the 20th of July, the Joint 
Plan of Action gets rid of the 20-percent material, keeps the 
level of low-enriched uranium stockpile the way it was at the 
beginning, allows the introduction of no more centrifuges, and, 
indeed, does a great number of things, not everything, but does 
a great number of things that I think are helpful.
    And various estimates have been made of the amount of 
breakout time that particular agreement allows us, perhaps 
going from as low as 2 weeks to something on the order of 2 or 
3 months. These are just estimates. I don't know that anybody 
can, you know, prove this on a stack of Bibles, but I think it 
is a more comfortable position.
    It also set a standard for the comprehensive agreement. The 
comprehensive agreement must be based on our agreement about an 
ongoing Iranian civil nuclear program as the basis. It says 
``joint agreement,'' but that means our agreement has to be 
there. That is an extremely important standard that has to be 
met.
    If time does not allow us until the 20th of July, we have 
another opportunity, because the Joint Plan of Action allows 
another 6 months----
    Mrs. Davis. It includes another step, right.
    Ambassador Pickering. It includes that. And presumably, but 
I don't know, it would have to be decided whether, in fact, all 
of those limitations will apply, will there be any more 
sanctions relief or no more sanctions relief.
    My own view would be the status quo, as it exists now, 
should be extended for additional negotiations if it looks like 
we have made real progress. If we don't, then we have to face 
the hard decision as to whether we walk away from the table. 
And the consequences of that----
    Mrs. Davis. Right.
    Ambassador Pickering [continuing]. I have laid out in my 
testimony. I think it is very important.
    I would like just to add one more point. Mr. Singh seems to 
put a lot of faith--he and I don't agree on a lot of things, 
but I agree on most of what he and Mr. Tobey have said here 
today, particularly on inspection.
    But Mr. Singh seems to put a lot of faith in the notion 
that the Iranians would somehow tell us that they have been 
involved in a weapons program and they now no longer are, and I 
would not. The history with Iran and perhaps with North Korea, 
I would put a lot of faith in the ideas that they and I have 
put forward, that it is through inspection and intelligence 
collection and the best job we can do in squeezing that program 
down that will give us the faith that they aren't going to go.
    And even if they say, in fact, well, we made these steps 
and we are not serious and we are not going to do it again, 
thank you very much, I would not at that point be convinced. I 
would want very much to see an ongoing program of monitored, 
verified action on their part.
    Mrs. Davis. Yeah. And I guess there is an expectation 
there. I would think that they anticipate also that that is 
part of the deal.
    Do you--we are going to go past July 20th, likely.
    Mr. Singh. I think so.
    And to be clear, I would say that both are necessary, not 
just one or the other. I think we have to have an accounting of 
past work as well as ongoing, very intrusive inspections, where 
I agree with Ambassador Pickering, for whom I have great 
respect, that we need to have Iraq-style on-demand inspections.
    I have a hard time believing that the current differences 
that we have between the United States side and our P5+1 
partners and Iran on the issues of centrifuges, sanctions 
relief, the timeline of an agreement can be bridged before July 
20th, especially the centrifuge issue, because there we are 
very far apart.
    And it is hard, in a sense, to understand the Iranian 
position. Because Iran, if it really just wants nuclear power--
remember, most states in the world that have nuclear power 
import their nuclear fuel. We here in the United States import 
a good portion of our nuclear fuel. Iran itself, for its one 
working nuclear reactor, imports its nuclear fuel.
    Mrs. Davis. Right.
    Mr. Singh. And so it is hard to make sense of that position 
absent a desire for nuclear weapons.
    The Chairman. The gentlelady's time has expired.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, I guess the first thing I should do is to ask 
for diplomatic immunity here today, because I have heard some 
things that leave me bewildered or even astonished.
    I have heard statements that the goal of Iran is to gain 
nuclear weapons without international condemnation. And I 
think, if Iran could gain nuclear weapons, with or without 
international condemnation, if that was the only thing that 
they had to worry about, that they would proceed tomorrow.
    I have heard it said that there is evidence that they don't 
intend to do it because they have chosen not to build, when 
every piece of evidence we have says that they have been 
pursuing this for a long time.
    I have heard it said, you know, that we need to just cap 
the enrichment to 3 to 5 percent, when most people who are 
familiar with that process know that, from the time we find 
uranium in the ground until the time that we can take it to 
4\1/2\ percent, we are 80 percent or more the way there to a 
fissile material, to a weapons-grade material.
    I have heard it said that we could possibly, only possibly, 
set them back 2 to 4 years, that somehow we would suggest that 
the United States of America could not prevent Iran from 
gaining nuclear weapons if the commitment was there. And I find 
that just, again, hard to express here.
    I have heard it said that there are conclusions that there 
is a high confidence that they have not made the decision to 
pursue a nuclear weapons capability, and I would suggest to you 
that that involves having to have clairvoyance and, especially 
in the face of any available evidence, points exactly to the 
opposite.
    Mr. Chairman, I believe that this Administration is placing 
us all on a trajectory where Iran gains a nuclear weapons 
capability and sets the entire world walking in the shadow of 
nuclear terrorism. And I find it just astonishing that there is 
such a casual cognitive dissonance here that somehow that we 
don't seem to understand how significant the issue really is. 
To see the world's leading sponsor of terrorism gaining a 
nuclear weapons capability will cause us to need a new 
calendar. It will change everything. Our children will never 
walk in peace again if that happens. The American people 
understand that, and I am astonished that some of the most 
erudite leaders in this country don't seem to grasp that.
    Mr. Chairman, under the interim agreement, Iran is 
essentially protected in a protocol for enrichment up to 3 to 5 
percent, and Mr. Chairman, I would suggest to you, sir, that 
that is the whole ball game; that if Iran can enrich uranium or 
produce plutonium that it is within their power to proceed to a 
nuclear weapons capability at will. The breakout is just a 
matter of a few months at most.
    And Mr. Chairman, I guess I need to calm down here a little 
bit and just ask one basic question: You know, we have seen the 
United Nations Security Council adopt multiple resolutions 
since 2006 demanding Iran's full and sustained suspension of 
all uranium enrichment-related and reprocessing activities and 
Iran's full cooperation with the IAEA on all outstanding issues 
related to its nuclear activities. And to date, Iran has 
violated almost all of those resolutions. And if Iran's nuclear 
aspirations are only for peaceful purposes, why would they 
continually violate these resolutions and hide their nuclear 
facilities, as, Mr. Chairman, you said, under a mountain, a 
very appropriate question in my mind, for decades in these 
secretive compounds?
    So my question, and I am going to send it to Mr. Singh if I 
could, and incidentally, sir, I think your analysis has been 
excellent here today. The interim agreement did not fulfill the 
demands of the United Nations Security Council resolutions and 
the question is: Do you have confidence that any final deal 
will satisfy those resolutions?
    Mr. Singh. Thank you, Mr. Congressman.
    It does not look like a final deal will satisfy those 
requirements. What the resolution said was that--and these were 
often unanimous resolutions--said that Iran had to suspend its 
enrichment reprocessing and heavy-water-related work. Right 
now, the heavy water reactor at Arak is continuing, although 
they have suspended some elements of that under the interim 
agreement, but it looks like as part of a final deal, they will 
be permitted to continue with that work. Enrichment we have 
conceded also on enrichment, as you have indicated, and so, no, 
I can't say that a final agreement would----
    Mr. Franks. So, Mr. Chairman, ultimately, the centrifuges 
are going to continue to spin and this Administration is going 
to continue to fiddle.
    I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thanks for being here. First 
question really goes to transparency in this process, and I am 
wondering, Ambassador, is it possible or realistic, and if so, 
how, to create an environment where the IAEA has full access to 
the entirety of the Iranian nuclear program to include the 
military sites, and if they are refusing to reveal the extent 
of their research and development [R&D] now, what would give us 
any assurance or confidence that once an agreement is reached, 
that we would have access both to the sites and to the extent 
of their R&D? And how can we reach an agreement unless we have 
this?
    Ambassador Pickering. The purpose of the present agreement 
is to satisfy your second point; that is, that the IAEA will be 
satisfied that all of the actions taken by Iran under the 
rubric of possible military developments, that is, actions they 
took between 1998 and 2003, which we have good reason to 
suspect were involved in the militarization of their nuclear 
program, have to be explained and revealed, if I can put it 
that way, for the reasons that Mr. Singh made clear, and with 
which I agree, that we can't inspect future programs if we 
don't know how they misbehaved in the past. And so that is very 
important.
    That work is apparently going ahead. Will it be done by the 
20th of July? I very much doubt it. And that will be an 
important factor in the consideration. But I don't think we 
should have a comprehensive deal until we are satisfied on that 
point. With respect to the first question, is it possible for 
us to put into place a regime under which we could expect any 
time, anywhere, and the answer to that is yes. The difficulty 
is, is it possible to put into a place where we know exactly 
what is going on in the head of the Iranian leadership at any 
particular time and at any particular moment? At the moment, we 
have not yet, with all respect, solved that problem. That is a 
traditional problem of intelligence where, in fact, we can know 
a great deal. We may know a lot. Congressman Franks was rather 
disparaging of General Clapper a moment ago, the Director of 
National Intelligence, who continues to say, year after year, 
he believes with high confidence, and if Mr. Franks doesn't 
really know, he should ask General Clapper because it is 
important that he understand why General Clapper agrees with 
high confidence that Iran has not made a decision to go for a 
nuclear weapon.
    But the principal problem is going anywhere and looking at 
everything gives us a leg up. But it doesn't give us total, 
absolute, 100 percent, you know, vacuum-proof confidence that 
we can do it.
    Ms. Gabbard. Thank you. Thank you. And the second question 
for Mr. Tobey: With your involvement and experience with North 
Korea, I am wondering what lessons learned should we be 
cognizant of now to make sure that this deal does not end up 
with the situation where we are today where we continue to deal 
with a nuclear threat from North Korea?
    Mr. Tobey. There is a very direct lesson. At the time of 
the agreed framework, there was a dispute between the IAEA and 
North Korea about whether or not they would have access to 
certain of the material in North Korea that would give them 
definitive knowledge of what North Korea had done in the past. 
The United States actually undermined the IAEA by saying it 
wasn't worth blocking a deal to go back and understand what had 
happened before. And unfortunately, that--I think it was done 
in good faith, and in--with some reasonably credible view that 
in a time when communist regimes were falling all over the 
world, the North Korea problem would solve itself within 5 
years, and it wasn't worth risking no deal to understand 
history.
    My point about understanding the possible military 
dimensions in Iran, is that it is worth and it is necessary to 
have a good deal. And one thing I would clarify with respect to 
the possible military dimensions, the point has been made that 
they halted in 2003. Actually, what the IAEA has reported is 
that there are indications that some activities relevant to the 
development of nuclear explosive device continued after 2003, 
and that some may still be ongoing. So this isn't all about 
history. This is about the future.
    Ms. Gabbard. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Last month, I offered an amendment to the National Defense 
Authorization Act, which stated that the United States should 
only agree to a comprehensive agreement with Iran if three 
conditions are met: One, Iran must cease enriching uranium; 
two, Iran must cease pursuing or developing nuclear, 
biological, or chemical weapons and ballistic missile 
technology; and three, Iran must stop supporting terrorism.
    These are positions taken by the House in the past. This 
language was adopted by this committee, and the bill passed 
unanimously out of this committee and passed the House by a 
strong bipartisan vote. So let the record reflect that this now 
is the position of the U.S. House of Representatives.
    For Mr. Tobey or Mr. Singh, can you describe the difference 
between the Israel and the U.S. definitions of what the red 
line is that should not be crossed, must not be crossed by 
Iran?
    Mr. Tobey. Well, I am actually a little unclear as to what, 
if any, red lines the United States has drawn with respect to 
Iran. I think it was pretty clear from Prime Minister 
Netanyahu's speech at the United Nations, where he had the 
graphic that production of 20 percent enriched uranium beyond a 
certain level was unacceptable to Israel. So I guess that would 
describe the difference as I understand it.
    Mr. Lamborn. And, Mr. Singh, how would you answer that?
    Mr. Singh. I think that Mr. Tobey is right. I think that 
the Israelis--but also not just the Israelis. I mean, the 
Israelis are very vocal on these points, but I think their 
basic view is shared by quite a few of our allies in the 
region, that some of the concessions that we have already made 
in the negotiations go too far for their comfort level. And so 
there is a lot of nervousness about what we are prepared to 
concede in this agreement, what we have already conceded in the 
negotiations, and what sort of stance we will have after an 
agreement is reached if in fact an agreement is reached.
    And so I would say that we--there are significant gaps 
between the U.S. and our allies, both Israel and the Arab 
allies, and it is very important that as part of our Iran 
policy, broadly, we address these differences; that we address 
these concerns that our allies have, lest we find ourselves 
again in a strategically much worse position after an agreement 
is signed.
    Mr. Lamborn. Well, when I look at--my personal opinion is 
that when you look at those differences, I am inclined to agree 
with them more than the Administration's position on which is 
the better approach.
    Changing subjects here, Secretary Kerry indicated that we 
are open to cooperate with Iran on the ISIS [Islamic State in 
Iraq and Syria] crisis in Iraq. Do you think that if such 
cooperation with Iran were to take place, that that would give 
them license to be more aggressive in the region, thus 
impacting the nuclear negotiations? Mr. Tobey.
    Mr. Tobey. Well, I think, actually, what Iran has--some 
Iranian officials already have said is that the crisis in Iraq 
should give them greater leverage on the nuclear matter. In 
other words, if the United States expects Iranian help in Iraq, 
the United States should show greater flexibility in the 
nuclear talks. I think, of course, that were we to pursue such 
flexibility, it would be a disaster.
    Mr. Lamborn. Another question, changing subjects. There has 
been some discussion in the Senate and it has been squelched, 
but I know Senators Menendez and, from Illinois, Kirk, want to 
have a--pass a bill, have sanctions in place in case the 
negotiations break through, do not go forward, as an incentive 
to the Iranians to keep negotiating. Would either of you two 
agree with that being a good bill to pass at this time?
    Mr. Tobey. I think the notion of contingent sanctions being 
real to the Iranian Government is a constructive one for the--a 
good outcome.
    Mr. Singh. I would just add to that, look, I think in any 
negotiation like this there has to be an ``or else'' that is 
out there for the Iranians. And I think that ``or else'' can 
take multiple forms, a credible military threat, which I think 
right now isn't very credible, or contingent sanctions.
    Mr. Lamborn. And I agree with both of you. I am glad to 
hear you say that.
    And Mr. Pickering, my last question, if Iran were somehow 
to develop a nuclear weapon, what would be--can you list some 
of the other countries in the region that would want to have 
their own nuclear program and/or weapon, just so the public can 
be aware?
    Ambassador Pickering. Well, I can. I think that we have 
always been concerned that countries like Saudi Arabia, Turkey, 
Egypt less so because of the turmoil in Egypt at the present 
time, although Egypt still a formidable potential power for 
moving in this direction, and in the past, we saw indications 
over the last three or four decades of Egyptian interest in 
this area.
    Mr. Lamborn. Any others? Any others?
    Ambassador Pickering. I think the United Arab Emirates, 
although we have a very tight 123 agreement with them that 
rules out enrichment and reprocessing, and so that is 
important. Could I just mention on contingency sanctions? My 
sanctions--we have contingency sanctions in place at the 
present time.
    The Chairman. The gentleman's time is expired.
    Ambassador Pickering. But the Iranians believe, in fact, 
that sanctions will happen immediately when the President wants 
it. Thank you.
    The Chairman. Thank you. I--we need to stay within the 
timelines or we won't be able to get all of the questions in. 
Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Ambassador, it is good to see you. I want to return to 
the inspection regime, and you know, what we are talking with 
Iran right now, is that--or all the things we are asking them 
to do are all reversible, right, not enriching the uranium 
beyond the 20 percent and the like. But going back to the 
inspection regime, how confident are you, given U.S. 
intelligence and IAEA's verification capabilities, that a 6-
month breakout window would be a sufficient period of time for 
us to actually even detect and counter them doing so? I mean, 
do we have the intelligence capabilities right now to even 
detect? I am afraid that we are going to--they are going to be 
further down in that 6-month window, and we won't even detect 
it, and we won't be able to react in time.
    Ambassador Pickering. I think it is a very good question. 
My own sense is that there are some people who would like to 
have the breakout window as long as 5 years. There are some who 
might agree on 3 years. The U.S. Government is purported to 
have said 6 months to 12 months, maybe more if they could get 
it, would be very useful.
    I think breakout is just one measure. The important 
questions that my two colleagues and I have put before you on 
inspection and monitoring, are really a key. In effect, if you 
don't know what is going on, no amount of breakout time is of 
any value. So we have to look at this as a whole nexus of 
factors and elements that we have to take into account. And so 
it is very important.
    I think that breakout time, as my testimony makes clear, is 
designed to provide us an opportunity before using force, which 
the President has kept on the table and says it is on the 
table, to see if we can stop a breakout short of the use of 
force. But the use of force is not taken off the table by an 
extension of breakout time. It shouldn't be, in my view. It is 
still there. A use of force might stop a breakout. It might not 
stop a breakout, but it appears to be one of the better factors 
that we have going for us in that particular set of issues.
    I am not sure if I have addressed your question well, but I 
think that it is that combination of doing our best to know 
what is going on. I think our intelligence has been pretty 
good. But anybody who believes their intelligence is perfect is 
in trouble.
    Ms. Duckworth. Well, thank you. I want to follow up on 
that, you know, and sort of go back to what you said earlier 
about the need for inspections and that we can't come from a 
position where we trust that Iranians will tell us that they 
are doing things in secret, and you know, if an agreement is 
reached which involves sanctions relief, I mean, how do we 
assure that the relief is not abused to advance a secret 
program beyond the inspection regime? And also you know, are 
there additional steps that the U.S. needs to take to combat 
the illicit procurement activities? And I am thinking 
specifically, they are going to have, if we reduce some of 
these sanctions, greater access to other markets. They are 
going to have more participation with other potential 
providers, and they are not going to tell us, Hey, we are 
secretly buying this stuff on the side because we now have 
access. What other things can we do beyond the inspection 
regime to ensure that we safeguard----
    Ambassador Pickering. I think we have heavily relied on our 
intelligence in the past to look at procurement activities. The 
IAEA does not have an intelligence system. It relies, in 
effect, on tip-offs from the intelligence systems of the big 
powers and other countries that have good intelligence. And in 
the past, intelligence has sometimes erred. But in my view, it 
is better to make a mistake and go look at it than it is to 
make the mistake of not taking into account what you think you 
are seeing and not look at it. And that is very, very 
important.
    I do agree that as we have gotten down into procurement, 
particularly into centrifuge construction, and the making of 
the rotors for the centrifuges, which are a very important 
element, and some of the specific materials that are not 
available to the Iranians or the Iranians have trouble making 
and are heavily dependent on the import is significant, it is 
very significant to look at that kind of material and take a 
look at whether, in fact, there may be covert operations using 
that material because the material balance between what we know 
and the material balance between what they import will show 
differences which will give us that kind of telltale.
    So there are useful ways of looking at these particular 
problems that can give us confidence, even high confidence. I 
keep telling you, however, I think there is nothing perfect. 
But I would rather go with the deal, with all of the monitoring 
and access that we have been talking about here at this table, 
and on which I think we have an agreement, than not go with a 
deal and have no monitoring and access at all.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Thornberry [presiding]. Thank you, Ms. Duckworth.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And you know, the testimony we heard today ranges across 
the board to--from being very optimistic to being pessimistic, 
talking about inspections. Do we truly believe that the IAEA is 
going to have the power to do the inspections necessary, 
because I do believe that we need to be more than just hopeful 
that we are getting the right information, and we hear that, 
well, we are never going to be certain. Well, I would rather 
err on the side of certainty, over-inspect than under-inspect.
    Do we have any confidence that we can have that occur on 
inspections?
    Mr. Tobey. The IAEA has very important, significant 
verification capabilities, great technical expertise. But 
ultimately, their power to sort of use those authorities is a 
political one. It depends on the board of governors in the 
first instance and, after that, the United Nations Security 
Council. So if it comes to a point where there is a dispute as 
to what they should be looking at and what they shouldn't, it 
will be resolved politically in the Security Council.
    Mr. Singh. And if I could just say, Congressman, that I 
think this may sound obvious, but the bigger the program you 
leave Iran with, the harder the inspections are. And so I would 
encourage us not to see the size of the program and the rigor 
of the inspections as somehow a tradeoff that, well, if you 
have got good inspections, you can give them a lot more 
residual capacity. I think you would want to help the 
inspectors by ensuring that program is as constrained as 
possible and that it has that political backing via a very 
strong enforcement mechanism to which we have a credible 
commitment.
    Ambassador Pickering. And Mr. Nugent, I think it is 
extremely important that we get a Security Council resolution 
supporting the agreement and hopefully one that says that if it 
is necessary to use force, sanctions, and pressure, we have the 
right to do so.
    Mr. Nugent. Well, I appreciate that succinct answer. There 
was a comment made about their covert activities, and I guess 
that really is the crux of it. You know, you have heard the 
chairman talk about, well, you know, if you are doing this for 
peaceful means, why would you have the facility under a 
mountain? Well, you wouldn't. I mean, you just wouldn't. But 
what are the chances, I guess, and this is the hard question, 
because intelligence is great. But we know that the 
intelligence community has missed the mark on so many issues. 
But once you miss it, it is almost impossible to go back and 
correct the issue, talk about covert opportunities that they 
have, or even the opportunities to purchase a weapon.
    Mr. Tobey. Verification is the process of presenting a 
complete picture of the entire fabric of activities. And if 
there are inconsistencies, loose threads, pulling at those 
loose threads until you understand exactly what happened. And 
if you actually have access to people and documents and places, 
it becomes very difficult to hide those things, especially when 
the inspection process interacts with intelligence means.
    Mr. Nugent. But do we have that today?
    Mr. Tobey. It is not in place today. It is my hope that any 
agreement would have that as a key component.
    Mr. Singh. Congressman, if I could just add, you asked, 
what confidence do we have? A former Deputy Director General of 
the IAEA, Olli Heinonen, has pointed out that if Iran doesn't 
have a covert element to its program now, it would be the first 
time in decades that they don't have that. Remember that all of 
these facilities we are talking about, Arak, Natanz, Fordow, 
were once clandestine facilities, which were exposed, which 
were not declared by Iran, but exposed, and they are all still 
in place and all still functioning.
    Mr. Nugent. And lastly, we talked about ballistic missiles. 
Why would we have a ballistic missile or in development of a 
ballistic missile for conventional versus the need, obviously, 
to have a delivery vehicle if you are going to go down the 
weaponization of nuclear? Why would you be spending time and 
money on development of ballistic missiles if your intention 
was just to use it as a conventional delivery system?
    Mr. Tobey. It makes no military sense. There could be some 
argument that it could be useful as a terror weapon, not 
particularly appealing either.
    Ambassador Pickering. I would just have to add that, of 
course, Iran and Iraq fought an 8-year war. They all had 
ballistic missiles at that time. They had no nuclear weapons. 
We were worried about nuclear weapons, but the nuclear weapon 
program came along in Iran after that war.
    Mr. Nugent. And I guess the last thing is, I just have a 
hard time trusting Iran just from the mere fact when I was in 
Iraq in 2011, an Iranian warhead was use to kill five of our 
soldiers. And they didn't get that off the shelf at Walmart.
    And I yield back. Thank you.
    Mr. Thornberry. Thank you, Mr. Nugent.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And gentlemen, thank you for being here today and for your 
testimony. As a cosponsor of H.R. 850, the Nuclear Iran 
Prevention Act, I am very concerned, as many of my colleagues 
are, about a nuclear Iran and what that would mean for our ally 
in Israel. I was in Israel last August and I saw firsthand the 
threats on every border. But every official I met with, whether 
they were military or political, from all across the spectrum, 
said one thing consistently, and that is: We have to stop Iran 
from getting a nuclear weapon. And I agree with that. We cannot 
be talking about containment. We have to talk about prevention. 
And I understand the importance of attempting a diplomatic 
solution. And I hope that there is some success here. But I 
remain skeptical about Iran and how trustworthy they could be 
on any agreement. In fact, when I was meeting, along with other 
Members, with representatives from the Administration we asked 
them, Have you identified, has intelligence identified all of 
the Iranian nuclear facilities? And they said, No, we haven't 
because some are hard to find. And entering into the 
negotiations or an agreement on that basis is very worrisome to 
me. And I think we need to be very careful about it.
    So I would like you, if you could, to comment on that issue 
of whether or not we can, in fact, reach an agreement that 
would identify the facilities so they can be inspected.
    Secondly, I am concerned about the removal of sanctions. I 
think it is going to be extraordinarily difficult to rebuild 
sanctions if an agreement does not get concluded. And I would 
like you, if you could, to comment on that.
    And then, finally, I want to go to the issue that was 
raised earlier by my colleague about the recent advice we have 
been getting across the board that we should perhaps have some 
discussions with Iran about joining together to secure Iraq 
from ISIS. It seems to me that this is a peculiar step for us 
to take with Iran, given our position on Syria and historically 
on Iran, so I would like you to explain in a little bit more 
detail if you could, to how the negotiations, if they occur, 
with Iran and ISIS in Iraq, how will they affect in any 
specific way the P5+1 negotiations? And conversely, can the 
P5+1 negotiations further complicate and potentially worsen an 
already delicate situation with Iraq, and how would these 
negotiations potentially affect our relationship with Israel?
    I know I have given you a lot, but I wanted to get all of 
the questions in so we could conserve on time and perhaps you 
could respond as quickly as possible. Thank you.
    Ambassador Pickering. Perhaps I could take a shot at a 
couple of the points that you make. I think that Iran has said 
they want to use the Iraq issue to see if they can effect a 
nuclear negotiation. The U.S. has said very clearly, it is not 
going to do that. And I think that that is important. I don't 
see the President at the moment rushing into Iraq again. I 
think, if anything, he is consulting up here and being very 
cautious about it, but we can all have our own ideas about that 
particular issue.
    I think on the question of inspections, you have gotten us 
into Don Rumsfeld's unknown unknowns. Of course, by 
definitions, unknown unknowns are not knowable, and there is no 
way to get around that. What we do, I think, see is that Iran's 
nuclear capacities are understood and known. We know where the 
pieces are, and I don't believe there are pieces that we don't 
know about in terms of the chain of facilities required to do 
enrichment, the chain of facilities required to produce heavy 
water. They have no capacity to produce plutonium in a 
reprocessing plant at the present time. So we see most of that. 
The really interesting question is, could there be an entirely 
black covert program going on? And Olli Heinonen, whose views I 
respect, may not have been referring to anything that large. He 
may have been referring to individual experiments about pieces 
of activity that we saw back before 2003. We don't know.
    But it is important to believe at least that we have a 
pretty good chance, and I think there is agreement here at the 
table, of finding bigger pieces that would be important in 
producing the nuclear fuel or conforming and configuring the 
warhead that we are worried about, and there I have some 
confidence that we are in better shape.
    Mr. Barber. Okay, I know we have very little time.
    Quickly, Mr. Tobey, Mr. Singh?
    Mr. Singh. Let me just say on sanctions relief that I think 
we should, that if there is an agreement, sanctions relief 
should be backloaded, that anything that is irreversible, and I 
agree that sanctions would be very hard to put back together, 
should come at the end of the process once we have seen what 
Iran's track record is. And even then, I think there are a 
number of sanctions that are going to have to stay in place 
because they address issues like terrorists.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you, Mr. Barber.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. Like many of my 
colleagues, I am a skeptic about the reality of what these 
talks can produce for us. But I am even further concerned by 
some of the testimony we have already heard about what might be 
the threat to the talks by introducing as a sidebar issue, this 
issue of the potential of some help or some cooperation between 
the United States and Iran in the Iraq ISIL [Islamic State in 
Iraq and the Levant] issue.
    I heard, Mr. Tobey, you made some pretty strong comments 
about that. From my experience in negotiating, if I introduce a 
new issue in negotiations, the person with whom I am 
negotiating is going to want something back in return for that.
    Are we, in fact, endangering our position in the 
negotiations over this agreement by introducing, even as a 
sidebar issue, this whole issue of some communication or 
cooperation between the United States and Iran with regard to 
the ISIL issue in Iraq?
    Ambassador Pickering. I think, sir, that Iran will be moved 
to do what they think they need to do to save Prime Minister 
Maliki and his regime. In my view, that fundamentally means 
changing Mr. Maliki's view on how he deals with the minorities 
in his own country. The ISIS people have scooped up lots of 
people who have been antagonized by Mr. Maliki among the Sunni 
population. And you remember back when we moved into Anbar and 
changed our policies and worked with the Sunnis. He has done 
exactly the opposite. He hasn't helped them. He hasn't 
supported them. He has put them in jail. He has treated them 
very badly. ISIS has made a lot of progress because, in fact, 
it has captured Sunni villages in northern Iraq.
    We now have to trust to see whether Maliki can do two 
things at once: can change his policies with respect to his 
minorities and begin to bring them back on his side; and at the 
same time, provide a significant defense so he doesn't lose his 
capital at the same time.
    Mr. Byrne. But my concern is is that we are introducing 
into the negotiations with regard to this agreement a new 
issue.
    Ambassador Pickering. I am not introducing the issue, and I 
don't think the U.S. is going to introduce the issue.
    Mr. Byrne. Well, we have some reports that they are. If 
that is true, does that change our position?
    Ambassador Pickering. Well, you know, I have reason to 
believe that those reports are at this point very tentative 
kinds of things. I think people are thinking better of this 
now. I hope they are. My own view is that Iran has to look out 
for its own interests in Iraq; that it is not up to the U.S. to 
teleguide them, to make deals with them. I think it is very 
important, particularly not at the expense of the issue we are 
here to discuss today, the nuclear deal.
    Mr. Byrne. Let me ask Mr. Singh and Mr. Tobey to respond to 
that.
    Mr. Singh. What I would say is I think that U.S. officials 
have tried to clarify that we don't want to see these two 
issues linked, and I think that is right. I think one of the 
dangers we have, though, is, again, the sort of perception in 
the region, and I think that when we are sitting there, sort of 
talking with the Iranians about these issues, it does raise 
those kind of worries in the region about, are we sort of 
sitting here and deciding regional issues on a bilateral basis 
with Iran, which our allies absolutely don't want to see us do 
and, frankly, isn't a wise thing for us to do from a policy 
perspective.
    And I agree with Ambassador Pickering. The Iranians see 
these things as leverage over us, and we don't want to see them 
linked at all. I think, more importantly though, what we really 
don't want to see, we don't want to see any increased Iranian 
involvement in Iraq. We want to see Iran out of regional 
conflicts, not further in regional conflicts.
    Mr. Byrne. Mr. Tobey.
    Mr. Tobey. I think greater Iranian involvement in Iraq 
would be against U.S. interests for its own sake, and I think 
it would be against U.S. interests in the P5+1 talks. I don't 
know what the Administration is doing with respect to talking 
to Iran about this.
    Mr. Byrne. Okay, thank you.
    I yield back.
    Mr. Thornberry. Thank you, Mr. Byrne.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And thank you for being here.
    I had a couple of questions for the panel. What I want to 
get a better understanding of is what the barriers are to Iran 
actually developing a nuclear weapon. Is it knowledge about how 
to do it? Is it a resource issue? Is it a capability issue? And 
in the event that a deal is actually reached, is there 
something that the P5+1 can do to ensure that we keep those 
barriers up and you don't see an erosion of those barriers?
    Mr. Singh. Well, I guess what I would say is, as I 
mentioned, there are three elements to a nuclear weapons 
program. You have got the fuel fabrication, where there is no 
great challenge before Iran on that side, except just doing it. 
They could produce highly enriched uranium to weapons grade 
with the technology they have now and with the knowledge they 
have now, as far as I know. The danger would be detection. The 
danger would be if they chose to do that, what reaction would 
that prompt from Israel or from the United States in terms of a 
military response?
    On the weaponization research side, it is difficult to say, 
but what I have seen from the IAEA, what I have sort of seen in 
news reports, leads me to suggest that they have done a lot of 
weaponization research and perhaps at least on a theoretical 
basis, they have gone far along on that.
    On the missiles, on the question of delivery vehicle, which 
is third leg, I think there, what I have seen is a lot 
spottier. It is not clear to me that they have, that they are 
close yet to an ICBM to be able to deliver a missile against a 
faraway foe or being able to put a nuclear warhead onto even a 
shorter range missile. And again, that is one of the reasons I 
am concerned that an interim agreement--I am sorry, a 
comprehensive agreement might allow them to continue that work 
and to perfect that leg of the program even while it pauses 
some of the other areas where it is further along. But on that 
question, I would say that what you would really need to get is 
an update from the Defense Department about exactly where do 
they stand on that particular leg.
    Mr. Kilmer. Anything either of you want to add?
    The other thing I want to get an understanding of, you 
know, it seems to me one that of the greatest dangers when a 
nation becomes a nuclear nation is their ability to transfer 
that knowledge to non-state actors or to non-nuclear nations. 
You know, as part of this conversation, is there anything that 
can be done to limit Iran's ability to transfer whatever 
knowledge they have to non-nuclear states or to non-state 
actors?
    Mr. Tobey. I think returning to understanding these 
possible military dimensions to the program is also key to that 
because it would allow the IAEA to understand who was involved 
in these programs and what they are doing, what they continue 
to do even today, and, therefore, could provide the basis for 
both the IAEA and perhaps even other nations to keep watch to 
make sure that those contacts are diminished.
    Ambassador Pickering. I think there is some good news here 
that every country that has developed a nuclear weapon, with 
the exception of Mr. A. Q. Khan in Pakistan, has had two 
imperatives on its plate: One is to make sure no other country 
or organization ever gets another--a nuclear weapon. And 
putting nuclear weapons in the hands of terrorists, 
particularly when should those be exploded, there are pretty 
good telltales as to where that particular weapon came from, is 
a very dangerous enterprise. And so the deterrence goes to the 
fabricator in some ways, and that is something that at least we 
have some hope there.
    The second thing they always have a problem with when they 
get a nuclear weapon is what they are going to use it for. But 
we don't want to see that. And here, I think it is extremely 
important that the major effort now being made is to prevent 
them from getting a weapon, and if that should fail through not 
getting an agreement, which I think is a very important part of 
this, then we do face, as I said earlier in my testimony, the 
question of whether we have a war or an Iranian nuclear weapon. 
I think that those two outcomes, with the failure of a 
negotiated effort or the failure of a combination of sanctions 
and a negotiated effort, are things we ought to keep crystal 
clear in our mind.
    Mr. Singh. If I could just add to that, Congressman, I 
would say that I think I would be more concerned than 
Ambassador Pickering on this score because we have seen Iran 
share technology with its non-state proxies, like Hezbollah, on 
the missile front in a way that has really destabilized the 
region. Most of the technology that Hezbollah has that it has 
actually deployed in the field in combat, as far as I know, is 
obtained from Iran, based on earlier Iranian advances. And I 
think it is actually more common than Ambassador Pickering 
suggested that nuclear states do end up sharing nuclear 
technology with others.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Thank you, Mr. Kilmer.
    Gentlemen, thank you so much for joining us today. We 
appreciate you spending your time with us. If there are any 
further questions from the committee, they will submit them to 
you in writing. We would ask that you respond back.
    Hearing no further business before the House Armed Services 
Committee, we are adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             June 19, 2014

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 19, 2014

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
      
  
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 19, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MRS. WALORSKI

    Mrs. Walorski. President Rouhani announced to reporters on June 14 
that ``If we can't reach a final agreement in negotiations by July 20 . 
. . conditions will never go back to the past. The sanctions regime has 
been broken.'' Do you agree with his assessment? What options to 
prevent Iran from obtaining a nuclear weapon exist if negotiations 
fail? Under what conditions do you think Congress should enact 
additional sanctions?
    Mr. Tobey. In the days before the July 20 deadline, Iran took 
aggressive stands seemingly to advance its bargaining position. In 
addition to the Rouhani statement, according to press reports, 
Ayatollah Ali Khamenei stood before a banner that read, ``America 
cannot do a [expletive] thing'' and taunted President Obama. Moreover, 
Iran announced that it would not agree to an extension of the interim 
agreement, unless Washington paid a substantial price, and Khamenei 
issued a demand for enrichment capacity that had no relation to 
reality.
    I do not believe the sanctions regime has been broken, although it 
has been weakened. Sanctions cannot prevent the Iranian regime from 
building nuclear weapons, if Tehran is determined to do so at all 
costs. They can, however, impose penalties so severe that any decision 
to do so would entail significant risks. I would recommend that 
Congress enact additional sanctions if Iran refuses come to an 
agreement that would not only limit activities at declared facilities, 
but also signal a strategic decision to abandon any nuclear weapons 
ambitions. Two indicators of such a decision would be full disclosure 
of the so-called ``possible military dimensions'' of Iran's nuclear 
program, and a willingness to accept strict and verifiable controls on 
the import and domestic manufacture of nuclear-related equipment and 
materials.
    Mrs. Walorski. President Rouhani announced to reporters on June 14 
that ``If we can't reach a final agreement in negotiations by July 20 . 
. . conditions will never go back to the past. The sanctions regime has 
been broken.'' Do you agree with his assessment? What options to 
prevent Iran from obtaining a nuclear weapon exist if negotiations 
fail? Under what conditions do you think Congress should enact 
additional sanctions?
    Mr. Singh. Sanctions regimes tend to degrade over time due to 
declining enforcement and compliance, and/or efforts by the sanctioned 
state to develop workarounds. We already see both effects at work in 
the case of sanctions on Iran. China, for example, imported record 
levels of oil from Iran in the first six months of 2014, yet drew no 
response from the United States. This is possible in part because of 
Iranian efforts to exploit loopholes in sanctions, in part by exporting 
condensate products not covered by U.S. legislation, and by exporting 
oil to Syria, apparently without receiving payment. Due to the 
degradation of sanctions over time, it is important both to enforce 
them vigorously and to maintain their momentum by imposing new 
sanctions and blocking workarounds. For these reasons, the Joint Plan 
of Action (JPOA)-mandated ``pause'' in the imposition of new nuclear 
sanctions and to some extent the enforcement of existing sanctions is 
problematic. If the current round of nuclear negotiations ends without 
an agreement, it may be difficult to resuscitate sanctions, in 
accordance with Iranian President Rouhani's prediction, for two 
reasons. First, oil importers such as China and India--already 
reluctant to comply with unilateral U.S. sanctions--may accept the 
Iranian argument that sanctions are no longer merited, especially if 
Iran continues to honor some or all of the limitations on its nuclear 
work imposed by the JPOA. Second, having already significantly reduced 
(albeit temporarily, in the case of China) their oil imports from Iran, 
importers may determine that the cost of further reductions outweighs 
the benefit. Nevertheless, if negotiations fail, strengthening 
sanctions in hopes of persuading Iran to refrain from further advancing 
its nuclear efforts and to approach negotiations more realistically 
will remain the United States' best course of action. It will also be 
important to enhance the credibility of American military threats, to 
which end our willingness to intervene in Iraq is potentially 
beneficial. It is important to bear in mind that Iran--like all parties 
to a negotiation--will evaluate any potential deals not in isolation, 
but in comparison to the most likely alternative. If that alternative 
is even heavier economic pressure and the credible possibility of a 
military strike on Iranian nuclear facilities, Iran may be more likely 
to accept the sort of stringent nuclear limitations we require, 
especially if those limitations are paired with various incentives. In 
that vein, I think it is important that Congress and the White House 
first ensure that existing sanctions not suspending by the JPOA 
continue to be vigorously enforced. In addition, they should send a 
clear and unified message that additional sanctions will be imposed on 
Iran and military action will be contemplated if the current round of 
negotiations does not produce a deal by the new deadline of November 
24. Ideally that message should be echoed by allies internationally. 
This is a matter on which, whatever their tactical differences, the 
legislative and executive branches--and key U.S. allies in the Middle 
East, Europe, Asia, and elsewhere--share the same objectives and 
strategy.
    Mrs. Walorski. President Rouhani announced to reporters on June 14 
that ``If we can't reach a final agreement in negotiations by July 20 . 
. . conditions will never go back to the past. The sanctions regime has 
been broken.'' Do you agree with his assessment? What options to 
prevent Iran from obtaining a nuclear weapon exist if negotiations 
fail? Under what conditions do you think Congress should enact 
additional sanctions?
    Ambassador Pickering. I do not agree with his assessment. The bulk 
of the sanctions continue in force. If negotiations fail because Iran 
does not agree with a reasonable approach, there will be continued 
world support for sanctions. If the responsibility is reversed, it will 
be harder to get cooperation, but sanctions on banking and financial 
transactions pose the question to citizens of other states--``Do you 
want to do business in Iran or the U.S.?'' That is a powerful tool of 
influence.
    To prevent Iran from obtaining a nuclear weapon (Iran says it does 
not wish to obtain such a weapon and the U.S. DNI reports on an annual 
basis that Iran has made no such decision with high confidence) there 
are additional sanctions which could lead to reopening negotiations, 
sanctions and threats of military force which might also lead to an 
agreement not to produce a weapon and, as the President has indicated, 
he will keep all options on the table including the use of military 
force in the case Iran should move toward building such a weapon.
    Congress should consider additional sanctions if negotiations truly 
breakdown and cannot be restarted, should there be clear evidence of 
Iran moving its nuclear program in a military direction, and in any 
case should the President ask for further sanctions.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
